<html>
<title> - COMMERCIAL REMOTE SENSING: FACILITATING INNOVATION AND LEADERSHIP</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                       COMMERCIAL REMOTE SENSING:
                 FACILITATING INNOVATION AND LEADERSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 7, 2016

                               __________

                           Serial No. 114-89

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov




                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-559PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
                          
                          
                          
                          



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
WARREN DAVIDSON, Ohio
LAMAR S. SMITH, Texas





















                            C O N T E N T S

                           September 7, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     7

Statement by Representative Donna Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    18
    Written Statement............................................    19

                               Witnesses:

Mr. Kevin O'Connell, President and CEO, Innovative Analytics and 
  Training LLC; Former Chair, Federal Advisory Committee on 
  Commercial Remote Sensing (ACCRES)
    Oral Statement...............................................    20
    Written Statement............................................    23

Mr. Kevin Pomfret, Executive Director, Centre for Spatial Law and 
  Policy
    Oral Statement...............................................    35
    Written Statement............................................    37

Ms. Michele R. Weslander Quaid, President, Sunesis Nexus LLC
    Oral Statement...............................................    44
    Written Statement............................................    47

Mr. Michael Dodge, Assistant Professor, Department of Space 
  Studies, University of North Dakota
    Oral Statement...............................................    57
    Written Statement............................................    59

Ms. Joanne Gabrynowicz, Professor Emerita, University of 
  Mississippi School of Law
    Oral Statement...............................................    66
    Written Statement............................................    68

Discussion.......................................................    82

             Appendix I: Answers to Post-Hearing Questions

Mr. Kevin O'Connell, President and CEO, Innovative Analytics and 
  Training LLC; Former Chair, Federal Advisory Committee on 
  Commercial Remote Sensing (ACCRES).............................    96

Mr. Kevin Pomfret, Executive Director, Centre for Spatial Law and 
  Policy.........................................................   106

Ms. Michele R. Weslander Quaid, President, Sunesis Nexus LLC.....   111

Mr. Michael Dodge, Assistant Professor, Department of Space 
  Studies, University of North Dakota............................   118

Ms. Joanne Gabrynowicz, Professor Emerita, University of 
  Mississippi School of Law......................................   130

 
                       COMMERCIAL REMOTE SENSING:
                 FACILITATING INNOVATION AND LEADERSHIP

                              ----------                              


                      WEDNESDAY, SEPTEMBER 7, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittee on Space will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time. Welcome to today's 
hearing entitled ``Commercial Remote Sensing: Facilitating 
Innovation and Leadership.''
    For over two decades, the United States has led the world 
in space-based commercial imagery, supporting our civil, 
commercial, and national security communities. In just the past 
few years, American innovation in space-based remote sensing 
has enjoyed a period of immense growth. American companies are 
investing in and developing a host of new and innovative 
technologies, services, applications, including space-based 
full motion video, hyper and multi-spectral imaging, space to 
space remote sensing and commercial signals intelligence.
    As these technologies grow, we must ask why, what, and how 
should we regulate space-based remote sensing activities? The 
last time Congress passed legislation on this subject was the 
1992 Land Remote Sensing Act. Back then, cube sats had not yet 
been invented or standardized. Computers, sensors, and other 
key technologies were orders of magnitudes more expensive, and 
far less capable. Today we depend on these technologies, and 
the geospatial data that they produce. Satellites, UAVs, and 
many other data collection systems provide the public with 
unprecedented information. After 24 years, it's time to take a 
hard look at these changes, and see where the laws, 
regulations, and policies governing this industry need reform.
    Section 202 of the Commercial Space Launch Competitiveness 
Act directed the Secretary of Commerce, in consultation with 
the National Oceanic and Atmospheric Administration's Advisory 
Committee on Commercial Remote Sensing, also known as ACCRES, 
to report on statutory updates necessary to license private 
remote sensing space stations no later than November the 25th 
of this year. For this report to be worthwhile, the Secretary 
should ensure the Advisory Committee has sufficient time to 
contribute to and inform the report. Let me say again that 
Congress directed consultation with ACCRES.
    Yet, as we near the due date for the report, I have some 
concerns. The last time the Department of Commerce held an 
ACCRES meeting was in June 2015, over a year ago. This is 
unacceptable, in light of the law passed by Congress, and 
signed by the President, directing the Department of Commerce 
to seek guidance from ACCRES. Slow rolling and obstructing this 
law is not only an affront to Congress and the President, but 
also to the American people. The Department has had ample time 
to draft the report, call an ACCRES meeting, and solicit their 
input. In addition, since the passage of the Commercial Space 
Launch Competitiveness Act, the Department has changed the 
composition of ACCRES by including representatives from federal 
agencies. And while the inclusion of federal representatives on 
ACCRES is within the authority of the Secretary, it is 
completely unnecessary. The Department already has a multitude 
of ways to engage with other federal agencies.
    In a response to the recent oversight letter, the 
Department argues that including federal representatives in 
ACCRES's membership facilitates meaningful interaction among 
government experts, knowledgeable industry representatives, and 
other critical stakeholders to provide advice to the 
Department. While this may be true, it's also true that such 
interaction does not necessarily require inclusion of federal 
representatives on the Advisory Committee. One thing is 
certain, if ACCRES operates on a consensus basis, the inclusion 
of federal representatives gives the Executive Branch a means 
to influence and control of the advice provided, including 
advice directed by Section 202 of the Commercial Space Launch 
Competitiveness Act.
    We, as Congress, and as a Nation, must adhere to certain 
principles as we reform that which governs private space-based 
remote sensing. First we must ensure U.S. industrial 
leadership, and this requires regulatory certainty, and a 
permissive environment that promotes innovation. In addition, 
we must, to the greatest extent possible, have both friend and 
foe justifiably rely on U.S. private sector services and 
applications. Finally, we must address broader national 
interests, particularly our national security interests.
    Few would contest these principles. The challenge lies in 
achieving the right balance. And right now the balance is all 
out of whack. This is partially a result of the policy Congress 
established in the 1992 Land Remote Sensing Act, and partially 
due to Executive Branch policies and regulatory processes. 
Congress and the administration can, and must, work together on 
reforms that encourage U.S. industrial innovation in a way that 
aligns with national security interests. We cannot have the 
private sector compete with national security.
    Make no mistake, we need reform. Over the past several 
years, NOAA's commercial remote sensing license applications 
have increased exponentially. Many of these applications are 
precedent setting, and challenge the legal construct of the 
1992 Land Remote Sensing Act. Some of NOAA's licensing actions 
are months, if not years, over the 120-day determination 
timeline which is required by law. Companies are applying and 
waiting, without understanding as to why NOAA takes so long to 
get back to them. Stakeholders report significant uncertainty 
with licensing actions, including modifications to operational 
license conditions without notice or due process.
    American remote sensing startups want to stay in the United 
States, but must plan for overseas operations due to 
uncertainty in the regulatory approval process. Without reform, 
we risk losing American leadership in commercial remote 
sensing. Such a loss hurts our national security and our 
economic competitiveness. We saw this happen before when, in 
the 1990s, a number of U.S. companies sought to establish 
commercial space-based synthetic aperture radar, or SAR, remote 
sensing satellite service. But due to regulatory uncertainty 
and dysfunction in the Executive Branch license determination 
processes, U.S. investment went overseas, unfortunately. 
Instead, Germany and Canada benefitted. Each established for-
profit commercial synthetic aperture radar remote sensing 
satellite services, which to this day dominate the 
international commercial market.
    We can't make the same mistake again. I am dedicated to 
continuing vigorous oversight on this subject, and working with 
my colleagues on both sides of the aisle to achieve 
constructive reform. I want to thank today's witnesses for 
joining us as we discuss these very important issues, and I 
look forward to hearing your testimony.
    [The prepared statement of Chairman Babin follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Babin. And I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, for holding 
this hearing today on Commercial Remote Sensing: Facilitating 
Innovation and Leadership. And I'd like to welcome our 
distinguished panel of witnesses today.
    Since the 1980s, Congress, across Democratic and Republican 
Presidents and Congresses, has set policy to encourage the 
development of commercial remote sensing industry, as well as 
the government's purchase of commercial remote sensing data, as 
appropriate. The Land Remote Sensing Policy Act of 1992, as the 
Chairman mentioned, established the framework for licensing and 
regulation of commercial remote sensing satellites under the 
Department of Commerce. Establishing a licensing regime was 
needed to fulfill our obligations under the Outer Space Treaty 
for supervision of non-governmental activities in space, and 
for providing U.S. private entities with a legal mechanism for 
carrying out commercial space-based remote sensing operations.
    Subsequently, since 1996, the Department of Commerce has 
issued about 100 licenses for commercial remote sensing 
systems. Over the past few years, the explosion of cubesats and 
advances in sensing capabilities have led companies to propose 
novel approaches to collecting space-based remote sensing data. 
Indeed, commercial remote sensing is now a dynamic and growing 
industry. In addition, the societal benefits these data provide 
for such global issues as natural disasters are evident with 
the appearance of commercial remote sensing imagines in 
televised news and headline newspaper articles. These exciting 
developments, however, mean that the days of relatively 
straightforward license applications are indeed over. As part 
of the licensing process, novel architectures, orbital 
mechanics, and new sensing capabilities must undergo careful 
consideration across the government to assess any impacts to 
national security and foreign policy, and to ensure the safety 
of existing orbital operations.
    Several stakeholders, including NOAA's Advisory Committee 
on Commercial Remote Sensing, have indicated that delays in 
approving licenses and operational constraints imposed by the 
licensing process may be impeding the current growth and 
evolution of the industry. And, in fact, Title II of the 
Commercial Space Launch Competitiveness Act was enacted last 
fall--just last fall--last year, requires a report on potential 
statutory updates that might be needed for licensing commercial 
space-based remote sensing systems. That report is due in the 
coming months. In fact, a year from enactment, the report is 
due in November. I certainly hope, Mr. Chairman, that the 
Subcommittee will have an opportunity to examine that report 
with NOAA before considering any potential updates to law, 
policy, or regulations. And, indeed, it would've been helpful 
to have invited NOAA to appear here today. They are not the 
enemy. They're our partners in trying to figure this out for 
the future.
    But before closing, Mr. Chairman, I want to highlight the 
enabling role that federal research and development continues 
to have in enabling the success of this industry. It is federal 
investment in remote sensing research and development, the free 
and open dissemination of federally provided remote sensing 
imagery, and the Federal Government purchase of commercial 
remote sensing data, that makes this vibrant industry, and its 
supporting value-added enterprises, possible. And I hope that 
we can have a partnership as we move forward both with the 
industry and with our federal executive partners to make sure 
that we're setting policy in the right direction. And I thank 
you, Mr. Chairman, and yield back the balance of my time.
    [The prepared statement of Ms. Edwards follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Babin. Thank you, Ms. Edwards. I now recognize the 
Chairman of our Full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. The commercial 
remote sensing space sector continues to experience 
unprecedented innovation and growth. Investments are being made 
in new technologies and applications with the potential to 
significantly improve the world we live in.
    According to the Satellite Industry Association, in 2015 
Earth observation services revenues grew by ten percent over 
the previous year. This growth is attributed to the development 
of smaller satellites, lower manufacturing costs, lower launch 
costs, and a growing customer base for remote sensing data. In 
other words, innovation. The Institute for Defense Analysis, 
Science, and Technology Policy Institute reached similar 
findings in its 2015 report, Global Trends in Space. The report 
stated that ``Expectations are especially high in the space 
remote sensing and space''--``Earth observation sectors, where 
high resolution, frequently updated geospatial imagery can 
provide information on the location and movement of people and 
objects.''
    Fortunately, the United States leads the world in these 
promising entrepreneurial endeavors. U.S. satellite remote 
sensing companies continue to push ahead and make the 
headlines. But the laws, regulations, and policies that govern 
private remote sensing space systems have not been updated for 
decades, are outdated and cumbersome. It's time for Congress to 
take a hard look at how we can streamline and reduce regulatory 
burdens. The private sector's innovation and leadership 
continue to outpace the government's ability to keep up with 
the industry, with very serious consequences. In fact, the 
United States may lose its innovators, its investors, and its 
leadership due to outdated and improper regulation and policy.
    Last year the Federal Advisory Committee on Commercial 
Remote Sensing stated the U.S. government needed to 
fundamentally re-think its approach to commercial remote 
sensing and policy. The committee found that traditional 
conceptions of remote sensing as in aerospace technology are 
outdated. It stated, ``Agencies continue to think about remote 
sensing as a traditional aerospace technology when, in fact, it 
is increasingly an information technology, requiring a 
different regulatory philosophy, and regulatory actions. U.S. 
Government stakeholders must tailor policy and regulations to 
reflect the fact that remote sensing is no longer a U.S. only, 
exclusively satellite based effort, but is instead a global 
information technology that relies on a wide range of 
platforms.''
    One of the complex challenges with reform stems from the 
fact that there are not only legal or regulatory challenges, 
but also process and oversight challenges. For oversight, 
Congress needs certain types of information in order to ensure 
that the administration follows the law. Unfortunately, 
Secretary of Commerce and the National Oceanic Atmospheric 
Administration have not been timely in producing such 
information. The Commercial Space Launch Competitiveness Act, 
signed into law last November, directs the Secretary to report, 
every year, basic information about how many license 
applications were received, how they were adjudicated, and how 
long it took. This information would let Congress know whether 
or not NOAA is satisfying their statutory responsibilities 
under existing law. But even this basic information hasn't yet 
been provided to Congress.
    The United States can continue to lead the world in 
commercial remote sensing, but we must ensure the law, 
regulations, policies, and processes governing this industry 
are well suited for the realities of our time. I do thank our 
witnesses for being with us today, and look forward to hearing 
their testimony. I yield back, Mr. Chairman.
    [The prepared statement of Mr. Smith follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Chairman Babin. And thank you, Mr. Chairman. I now 
recognize the Ranking Member of the Full Committee, Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I 
appreciate you holding this hearing, and thank the panel of 
witnesses that are here today.
    Enabled by years of federal investment, the commercial 
remote sensing industry has made significant progress. In 
addition to selling high resolution imagery to government and 
commercial customers, a number of companies are proposing new 
approaches to remote sensing, including using constellations of 
smaller satellites to provide imagery more frequently.
    As many of the Members of this Subcommittee know, the 
licensing operations of private space-based remote sensing 
systems fall within the jurisdiction of the Department of 
Commerce, namely NOAA's Assistant Administrator for Satellite 
and Information Services Commercial Remote Sensing Regulatory 
Affairs Unit. Industry growth has impacted the licensing 
workload of that unit. For example, while 26 licenses were 
issued from fiscal year 1996 to fiscal year 2010, 75 licenses 
were issued from fiscal year 2010 to fiscal year 2015. And just 
within fiscal year 2015, 33 applications for licenses were 
filed with the unit.
    With this backdrop, I look forward to hearing from our 
panel of witnesses on ways in which NOAA's regulatory function 
can be improved in the face of evolving technology and 
projected operational advancements. In particular, I'd like to 
know whether there is a need to update NOAA's licensing 
regulations, and whether NOAA operations can be streamlined, 
for example, in dealing with the increasing number of cubesats 
requesting a license. I would also be interested in hearing 
whether new regulations can be developed without unduly 
limiting the promise of innovative commercial remote sensing 
technologies, while at the same time addressing any legitimate 
concerns of the intelligence and national security communities.
    Chairman Babin, today's hearing is important, and I 
appreciate you having it. In addition to today's testimony, I 
would urge you to invite NOAA representatives to a future 
hearing to lay out the challenges they face and actions they 
plan to take to address them. I thank you, and yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Babin. Thank you, Ms. Johnson. I would add that, 
we will invite them after the report is delivered, okay?
    Now I'd like to introduce our witnesses. Our first witness 
today is Mr. Kevin O'Connell, President and CEO of Innovative 
Analytics and Training. Mr. O'Connell is a leading analyst, 
scholar, and writer on national security and intelligence 
issues. For over three decades he has been deeply involved in 
identifying, analyzing, and helping manage emerging threats to 
the Nation's interest, whether governmental or commercial. His 
prior U.S. Government experience has included assignments with 
the Department of Defense, the Department of State, the 
National Security Council, Office of the Vice President, and 
the Office of the Director of Central Intelligence. He serves 
today as a senior consultant to the Office of the Director of 
National Intelligence. He was a longstanding member, and later 
chairman, of NOAA's Federal Advisory Committee on Commercial 
Remote Sensing, or ACCRES, between 2002 and mid-2016. He 
received his B.A., his Bachelor of Arts, in International 
Studies from The Ohio State University, and his Master's in 
Public Policy from the University of Maryland.
    We'll recognize you for five minutes, Mr. O'Connell.
    Mr. O'Connell. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir.

               TESTIMONY OF MR. KEVIN O'CONNELL,

                       PRESIDENT AND CEO,

             INNOVATIVE ANALYTICS AND TRAINING LLC;

            FORMER CHAIR, FEDERAL ADVISORY COMMITTEE

             ON COMMERCIAL REMOTE SENSING (ACCRES)

    Mr. O'Connell. Good afternoon Chairman Babin, Ranking 
Member Edwards, Chairman Smith, Ranking Member Johnson. Thank 
you so much for inviting me to testify today on how we can 
sustain U.S. leadership and innovation in commercial remote 
sensing. Today I'll be speaking from my own personal vantage 
point, having looked through all of the assignments that the 
Chairman has mentioned over the years, at the issue of 
commercial remote sensing. And I'm proud to have served on 
NOAA's Federal Advisory Committee since inception in 2002 until 
recently, both as a member, and then, in more recent years, as 
the chairman.
    Remote sensing technologies, processing, and analysis, as 
has been already said, are changing dynamically. American 
companies, like Black Sky Global, Digital Globe, Harris 
Systems, Omni Earth, Planet, Terrabella, and others are at the 
cutting edge of the global commercial remote sensing market. 
They feature a remarkable diversity of technical approach, 
business models, and operational concepts, world class 
technology that's supported by fast breaking parallel 
developments in areas like cloud computing, advanced analytics, 
and others, and they're able to leverage new funding sources in 
the private sector and venture capital markets, and the ability 
to leverage a broad geospatial ecosystem that is global.
    In my written testimony I identified six big trends that I 
think influence the global market. I'll only mention them here, 
and we can talk about them later. One, a growing demand for new 
applications, both in the government and in the commercial 
sector, the rise of analysis, increased access by a wider range 
of participants, increased globalization, changing business 
models, and, last but not least, the growing importance of non-
technical factors, such as national prestige and workforce 
development.
    U.S. policy has been consistently forward-looking and 
bipartisan over the past 20 years, but our future rests atop a 
more uncertain foundation created by traditional bureaucratic 
mindsets, an outdated regulatory system, and deep concerns 
concerning the trade-offs between innovation and national 
security. The U.S. Government needs to benefit from leveraging 
by solely creating the kinds of capabilities, information, and 
analysis that are increasingly available in the market.
    The U.S. Government, including Commerce and NOAA, play five 
roles in the market; customer, patron, a regulator, a 
competitor, and an advocate. And, by the way, these are not 
purely theoretical roles: they are active policy roles, every 
one of the five. They sometimes conflict with one another. But 
the speed of technology and innovation is rapidly changing and 
outpacing the ability to keep up with policy regulatory 
developments. As is the case with many other information 
technologies, the U.S. Government must re-formulate its 
approach and practice if it wants to remain on the cutting edge 
of these technologies.
    Let's talk for a moment about the regulatory regime. The 
regulatory regime needs to be modernized both substantively, 
and from a process perspective, to objectively reflect the 
current market and technology trends. Speed is an important 
market, and even national security, discriminator. Other than 
consolidation of existing statutory authority in 2010, there 
have not been modifications, as has been said, to the Commerce 
Department's authorities, in this area for over a decade, 
during which time novel technologies, operational concepts, and 
business models have emerged.
    Current regulations, for example, don't extend beyond the 
electro-optical realm. They're out of date, in terms of control 
and leverage mechanisms, and they don't reflect modern ideas 
about how to shape global markets, and thereby enhance U.S. 
national security. I understand that proposed NOAA resources in 
the President's budget for fiscal year 2017 are welcome, but 
that does not necessarily guarantee that the regulatory regime 
will be modernized in such a way that is both limited and 
efficient. Policy and regulation should be anticipating future 
opportunities and challenges, not looking backwards, as is 
sometime the case.
    Let's talk for a minute about security issues. Remote 
sensing has a very rich history in the security of our Nation. 
That security history sometimes clouds our thinking about how 
to advance security and leadership through successful 
commercial remote sensing. Four key points. We need to attract 
top talent and investment to the United States under a 
functioning regulatory structure. The U.S. maintains leverage, 
and shapes global developments. Failure to adapt our mindset 
will push innovation offshore.
    Secondly, we need to re-frame our thinking about imagery 
within the national security toolkit, especially as it helps 
with shaping the national security environment in areas like 
humanitarian relief, and others. I would note, for example, 
some of the work being done at NGA by Mr. Cardillo in thinking 
in a different way about how to apply imagery and information 
sharing.
    Third, given concerns about space security, the U.S. 
benefits from the resilience created by a robust commercial 
market. Diffuse global reliance on commercial satellite systems 
redefines the strategic environment for space. And fourth, very 
important, something I've written about for almost 20 years, we 
need to learn how to live in a much more transparent world. We 
need to update our thinking about how to protect U.S. troops, 
U.S. facilities, U.S. public at large for this world, but not 
fixate on information control. Obviously the United States 
Government will retain the option for dire national 
emergencies, but we need to think about security differently.
    I'll close in saying that the Nation still holds a 
leadership position and a strategic advantage in commercial 
remote sensing, and we have a bipartisan policy to encourage 
it. U.S. policy and regulatory mechanisms need to be updated 
for the current technology and market factors, and must 
anticipate newer developments, with an eye toward efficient and 
practical regulation, and incentive creation for U.S. industry. 
The Nation as a whole benefits from this. Inaction and 
indecision will result in strategic failure, and being 
defensive only cedes advantage to foreign competitors. Given 
longstanding U.S. policy aims, and an American innovation 
culture, in my view, the only long term strategy is offense. 
And on that note, I'll look forward to the other testimony, and 
certainly your questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. O'Connell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Babin. Thank you, Mr. O'Connell, appreciate that.
    And our second witness today is Mr. Kevin Pomfret. He's the 
founder and Executive Director for the Centre for Spatial Law 
and Policy. He's also a partner at the Williams Mullin law 
firm, and co-chair of both the firm's Unmanned Systems and the 
Cyber Security and Data Protection practice groups. His career 
began as a satellite imagery analyst, where he helped to 
develop imagery collection strategies to monitor arms control 
treaties and identify requirements for future collection 
systems. In addition, he is a member of the National Geospatial 
Advisory Committee. He earned his J.D. from the Washington Lee 
University School of Law, and his B.A. from Bates College. So I 
will recognize you for five minutes, Mr. Pomfret.

                TESTIMONY OF MR. KEVIN POMFRET,

                      EXECUTIVE DIRECTOR,

               CENTRE FOR SPATIAL LAW AND POLICY

    Mr. Pomfret. Thank you, Mr. Chairman. Good afternoon to 
you, and Members of the Subcommittee. I appreciate this 
opportunity to speak on behalf of the Centre for Spatial Law 
and Policy in connection with the hearing on commercial remote 
sensing.
    Geospatial information can be generally defined as 
information about a person, place, or thing that can be tied to 
a particular place on Earth. It can be collected in a variety 
of ways, using a number of different technologies. For example, 
geo-information can be collected from sensors mounted on 
satellites, manned aircraft, drones, automobiles, ships, and 
mobile devices, such as smartphones. Alternatively, it can be 
collected from fixed ground-based sensors, or by individuals 
walking around a neighborhood with a notebook, collecting 
information for a census.
    Geo-information includes the location, size, and shape of a 
lake, the median income of a particular zip code, a street 
address, hours of operation of the closest Starbucks, or the 
coordinates of a suspected terrorist. There are a number of 
legal and policy issues associated with the collection, 
analysis, storage, and distribution of remote sensing data, and 
other types of geo-information. These issues include 
intellectual property rights, privacy, licensing, liability, 
and national security. These issues are global, and cut across 
a number of technology platforms, including commercial remote 
sensing satellites.
    The commercial remote sensing industry is an integral part 
of a global ecosystem of businesses, government agencies, NGOs, 
research organizations, and citizens that collect, analyze, and 
distribute to you information. Each stakeholder in this 
ecosystem can serve as both a data collector and a data user, 
often simultaneously. This ecosystem creates products and 
services that allow analysis and visualization of information 
from business and government databases overlaid on an image, or 
a map created from imagery, and aggregated with geo-information 
collected and shared by individuals through tools such as Open 
Street Map.
    Geo-information is a versatile and powerful asset that is 
being used in a growing number of important business, 
governmental, and environmental applications that have 
tremendous economic and societal value. For example, a 
satellite image can be used by a business in deciding where to 
open a new store, by a consumer using his or her satellite 
navigation device to find the store once it is opened, by the 
city's Department of Transportation to decide where to put 
lights in order to address the traffic issues associated with 
the store's opening. Unfortunately, like other technologies, it 
can also be used by a criminal in planning to rob that store.
    This power of information to assist in decision making is 
based upon a number of factors, including data type, 
timeliness, accuracy, precision, and completeness. In general, 
decision making improves with a greater availability of higher 
quality geo information. This versatility and power enhances 
the value of geo-information, however, it could also be a 
significant challenge from a policy and regulatory standpoint. 
For example, efforts by law enforcement to control the 
collection and use of imagery to reduce store robberies will 
also limit the ability of businesses, governments, and 
consumers to use the same information in ways that save time, 
money, and lives.
    Historically the United States has been a global leader in 
most geospatial technology. However, today the geo-information 
marketplace is truly global. For example, Singapore is on the 
cutting edge of using geo-information for transportation and 
smart cities. In 2011 the United Nations formed the UN Global 
Geospatial Information Management Initiative to assist in the 
global development of geospatial information, and to promote 
its use to address challenges such as disaster response, food 
security, migration, and the sustainable development goals.
    The geo-information marketplace is extremely competitive. 
Technology advancements have contributed to a dramatic increase 
in the number of platforms that collect new information, 
including, as discussed today, small sats, drones, and mobile 
devices, as well as improved software tools to analyze and 
visualize this information. Despite these changes in the 
market, consumers of geo-information still are more interested 
in whether the product or service will help them in their 
decision making, rather than the platform or sensor in which 
the geo-information is collected. As a result, overly 
restrictive regulations on one technology or one platform will 
make that sector less competitive.
    Technology policy inherently involves balancing perceived 
risks with potential benefits. Concerns associated with 
commercial remote sensing satellites need to be weighed against 
the growing role that geo-information is playing in our daily 
lives. Policies should also consider the opportunity costs 
associated with not collecting the information or realizing its 
full value. Laws and regulations that pertain to geo-
information should be narrowly tailored and transparent, and 
such laws and regulations should be continuously reviewed and 
updated to reflect this changing technology landscape. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Pomfret follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     Chairman Babin. Thank you, Mr. Pomfret, we appreciate that.
    And our third witness today is Ms. Michele Weslander Quaid, 
who is founder and President of Sunesis Nexus LLC. Prior to 
founding her own company, she served as Google's Chief 
Technology Officer for the public sector, and Chief Innovation 
Evangelist. Before joining Google in 2011, Michele served in 
both industry and government. Her government service includes 
Deputy Technical Executive for the National Geospatial 
Intelligence Agency, Intelligence Community Deputy Chief 
Information Officer for the Director of National Intelligence, 
and Chief Technology Officer for the National Reconnaissance 
Office. She is also an ACCRES member. She earned a Bachelor of 
Science from Seattle Pacific University, a Master's Degree in 
Optics from the University of Rochester, and she is a graduate 
of Harvard University's Kennedy School of Government Program 
for Senior Managers in Government.
    So we will give you five minutes, Ms. Quaid.

          TESTIMONY OF MS. MICHELE R. WESLANDER QUAID,

                  PRESIDENT, SUNESIS NEXUS LLC

    Ms. Weslander Quaid. Thank you, Mr. Chairman, and Members 
of the Subcommittee. It's an honor to be here to speak with you 
today on this important topic of commercial remote sensing, and 
keeping America's leadership position in this area. Please 
refer to my written testimony for further details on my 
experience, but I want to highlight some specifics here.
    In my last assignment in government, I served as the DNI, 
Director of National Intelligence, representative to the 
Secretary of Defense Intelligence, Surveillance, and 
Reconnaissance Task Force. We were focused on stability 
operations in Afghanistan, and around the globe, and something 
that really was driven home by that experience is the 
importance of information sharing--not only with the 
Commonwealth, not only with the Coalition, but with non-
traditional partners, and those can include local citizens, 
private volunteers, and humanitarian organizations. Those 
people don't have clearances, and they need access to 
information in a geospatial context. So this geospatial 
information we're talking about form commercial satellites is 
critical to those type of operations.
    So, as was mentioned, after my government service, I joined 
one of the most innovative companies in the world, Google. And 
one of the things I want to highlight on that environment is 
defaulting to trust, and empowering people to innovate, and 
make decisions, and affect positive change. Also highlight 
something, a default to share model, while also employing a 
security team that is second to none. And in that environment, 
how innovation could flourish, and the national security 
community would benefit from that type of model.
    These experiences that I've had throughout my career have 
really shaped my perspective, and, again, more details are 
highlighted in my written testimony, and more details on 
several national security issues, but I want to highlight some 
themes. The only constant is change. Heraclitus said that in 
500 B.C., and it's even more important today. The speed of 
change in the remote sensing industry is unprecedented. The 
U.S. Government must strive to make itself a veritable Delaware 
for commercial remote sensing, attracting the top talent, and 
creating an environment in which they can innovate and 
flourish, and thereby enable U.S. to maintain a leadership 
role.
    If we don't share together, we risk dying together. 
Commercial imagery, being open, can be freely shared. National 
technical means imagery, being from a classified source, and 
therefore classified, cannot be easily shared. It's rare these 
days that we are in a U.S. only operation. More often than not 
we find ourselves working with partners we have not previously 
worked with before, and embark on an endeavor with these 
partners where shared situational awareness is not only key to 
the success of the mission, but also critical to the safety of 
all involved. For example, counterterrorism operations and 
humanitarian assistance and disaster response operations, or 
HADR, require the ability to share information with the 
coalition of the day, which often includes those non-
traditional partners I mentioned before. By sharing this 
information in a geospatial context, we can enable what I call 
unity of effort, without unity of command.
    Imagery from commercial remote sensing is critical to these 
operations, whether in Afghanistan, or Haiti, or the United 
States. It's not just about pixels, it's about information 
services derived from the data. If you talk to most any of the 
big names in Silicon Valley, they cared so much about the 
imagery and the pixels. They care about the information 
services they can derive from that data, and constantly 
updating the services they provide, many of which become very 
critical, and we depend on in our lives today.
    In addition, geo-referenced social media and news sources 
can provide valuable insight and additional context to an HADR 
scenario, as we saw following the 2010 earthquake in Haiti. 
Once again, commercial imagery provides critical, shareable 
context. Utilizing commercial remote sensing assets and 
automatic processing can be a huge competitive advantage. 
Commercial companies, like Google, have cybersecurity 
expertise, and can provide an ability to share data securely, 
and the government could benefit by harnessing commercial data 
and the automated processing to provide secure access to data 
information and expertise around the world. We collect massive 
amounts of data every day. But just because we collected it 
doesn't mean we're any smarter, because you can't do 
intelligence by osmosis. Someone has to look at the data, and 
we don't have enough human resources to do it, so we need to 
get the machines to do it, and tip the humans what to look at 
any given day, in any given hour.
    If we don't take intelligent risks, we risk becoming 
irrelevant. In my experience, the biggest barriers to 
innovation are culture, policy, and technology, and most often 
culture is the biggest challenge. In the case of remote 
sensing, the government used to be the only game in town, and 
now others have entered the field. There is no way for the 
government to predict what could come next, or to keep pace, or 
to accurately judge the viability of commercial business model. 
Creating an overly burdensome regulatory environment and 
oversight policy that holds commercial innovation back until 
such time that the government can catch up or get comfortable 
with it is not reasonable or responsible use of authorities, 
and can have devastating consequences for the industrial base. 
The burden should not be put on industry to justify why. The 
burden should be put on the government to justify why not. What 
has made this country great is our industrial base and 
intelligent risk taking.
    There are completely new fields being invented, and we do 
not tend to see the same level of government regulation and 
oversight in those arenas as we have observed in the commercial 
remote sensing arena, yet some of these capabilities have 
become just as critical to our national security and our way of 
life. Government should empower, not compete, with industry. 
We're dealing with limited resources, so we must focus the 
resources government does have on things unique to its mission, 
and uniquely governmental, and leave the rest to industry.
    The potential loss of our industrial base is a national 
security issue. U.S. policy articulates a very supportive 
environment for commercial satellite industry, and artificially 
constraining what U.S. commercial industry can build or sell 
handicaps them in the international marketplace, which is 
quickly being flooded with others who do not face the same 
restrictions. And the over-regulation, as is highlighted 
before, has led to the demise of commercial U.S. satellite 
ventures in the past. So leadership has set the vision in NSPD 
27, PPD 4, and the 2011 National Security Space Policy. Now we 
must implement that vision.
    So, in conclusion, we cannot lose sight of the 
characteristics that have made the U.S. a global leader, and 
that includes courage, intelligent risk taking, and innovation. 
Our world is changing at an unprecedented pace, and we must 
allow our industry to keep pace and be agile and adaptive, so 
our regulatory environment must enable them to do so, and not 
thwart the very characteristics that have enabled the U.S. to 
enjoy a leadership position. Thank you for your time and 
attention, and I'm happy to answer questions.
    [The prepared statement of Ms. Weslander Quaid follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Ms. Quaid. We appreciate that 
very much.
    Our fourth witness is Mr. Michael Dodge, Assistant 
Professor and Graduate Program Director in the Department of 
Space Studies at the University of North Dakota. At the 
University of North Dakota he teaches courses that include 
Space Law, History of the Space Age, Space Politics and Policy, 
and Remote Sensing Law and Regulation. He's also an editor of 
the Journal of Space Law. He received his J.D. from the 
University of Mississippi School of Law, and his LLM in Air and 
Space Law at McGill Faculty of Law in Montreal, Canada.
    So we give you five minutes, Mr. Dodge. Thank you.

                TESTIMONY OF MR. MICHAEL DODGE,

                      ASSISTANT PROFESSOR,

                  DEPARTMENT OF SPACE STUDIES,

                   UNIVERSITY OF NORTH DAKOTA

    Mr. Dodge. Thank you, Mr. Chairman, and Members of the 
Committee. I'd like to thank you for inviting me to participate 
in the hearing today, and it's a privilege to be invited, so 
I'm happy some thoughts on this timely topic.
    For the most part, extent commercial remote sensing law and 
regulation has served the United States and its commercial 
interests quite well. However, the current system is no longer 
ideal for either the federal government or industry, and 
changes to the nature of technology and business over the 
years, since the Land Remote Sensing Policy Act of 1992, have 
generated new opportunities that can be successfully exploited 
with regulation that more fully conforms to the spirit of the 
national space policy, as well as NSPD 27, more commonly known 
as the U.S. Commercial Remote Sensing Policy.
    Indeed, the laws and regulations respecting space-based 
private remote sensing systems stand ready for change. Because, 
although generally effective in supporting the needs of both 
the Federal Government and the industry, they nevertheless 
often cause unintended negative consequences for industry 
participants. In particular, complaints have been lodged that 
the system, in its current instantiation, has caused 
unnecessary obstruction in the licensing of certain data, and 
even substantial delays in action on applications for the sale 
of data that can exceed statutory and regulatory limits.
    If Congress chooses to act with respect to this issue, 
there are a few mechanisms that can be utilized to ameliorate 
the current situation. Congress can, for instance, change the 
policy behind the law in an effort to better align the system. 
It can also choose to change the regulatory structure by 
modifying the statute governing private remote sensing systems. 
And, as has been called for by some in the industry, better 
enforcement of extent standards could help relieve some of the 
pressure facing private entities seeking licensure and 
governmental permission to sell data and imagery.
    Possible changes could be done either by replacing the 1992 
act with a modern incarnation that better reflects the needs 
and interests of all the interested parties, or it could be 
done with clarifying amendments. If replacing the law wholesale 
proves too far for current Congressional interest, the current 
system can still be improved with surgical statutory 
modifications that lead to refined regulations, renovating 
where necessary to assist with concerns such as more rapid 
response to license applications, as well as reforming, and, 
when possible, speeding the process of inter-agency review of 
matters that require input from the Departments of Defense or 
State.
    Recent legislative efforts have reinforced the notion that 
the role of government should adapt to benefit the needs of the 
private remote sensing industry. As an example, Title III of 
the U.S. Commercial Space Launch Competitiveness Act requires 
the Office of Space Commerce to foster the conditions for the 
economic advancement of the United States Space Commerce 
industry. Indeed, this provision helps to demonstrate the need 
for legal and regulatory clarity vis-a-vis commercial remote 
sensing. Moreover, this provision lends credence to utilizing 
clearer, consistently applied regulatory work for commercial 
interests.
    This philosophy is supported by United States policy, 
including the National Space Policy as espoused by the 
Executive Branch, and the U.S. Commercial Remote Sensing 
Policy, which note that the success of the commercial remote 
sensing industry is not only desirable, but closely linked with 
increased national needs, including strengthening United States 
national security. It should be emphasized that, in most 
instances, there need not be friction between promoting 
commercial success and protecting national security and that 
the two can and often do complement one another.
    Finally, clarity, be it in regulatory reform or by 
modification of the 1992 Act, helps the United States to 
fulfill its longstanding public international law obligations 
under certain key provisions of the Outer Space Treaty. In 
particular, Article VI requires authorization and supervision 
of the State Party to the treaty for all of its non-
governmental entities acting in space. In the current system, 
licensing can serve as the requisite authorization. Knowing 
when to license and, in colloquial terms, changing the 
presumption of licensing new technologies and available data 
resolutions to yes, rather than we will see, will both promote 
the success of an industry struggling to keep up or, in some 
cases, catch up, with international competitors, as well as 
provide a clear statement to the international community that 
the United States intends to continue following its Article VI 
obligations through a more consistent and transparent process.
    I thank the Committee for allowing me to speak at this 
hearing, and I am happy to answer questions as needed. Thank 
you.
    [The prepared statement of Mr. Dodge follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
        
    Chairman Babin. Thank you very much, Mr. Dodge. And our 
final witness today is Ms. Joanne Gabrynowicz, Professor 
Emerita at the University of Mississippi, School of Law. Mrs. 
Gabrynowicz is the Director Emerita of the National Center for 
Remote Sensing Air and Space Law at the University of 
Mississippi's Law Center and Editor-in-Chief Emerita of the 
Journal of Space Law. Mrs. Gabrynowicz has taught space law for 
28 years and lectures at various universities including the 
University of Vienna and the Beijing Institute of Technology. 
She received her BA from Hunter College and a JD from Yeshiva 
University, Cardozo School of Law. I now recognize Mrs. 
Gabrynowicz for five minutes.

              TESTIMONY OF MS. JOANNE GABRYNOWICZ,

                       PROFESSOR EMERITA,

            UNIVERSITY OF MISSISSIPPI SCHOOL OF LAW

    Ms. Gabrynowicz. Thank you, Mr. Chairman, and Committee 
Members for this opportunity to be here today. The entire text 
of my testimony has been submitted for the record. I will 
address four points. The first, a key question to be considered 
is whether federal grants, contracts, or subsidies will be used 
to facilitate new national remote sensing legislation. And if 
so, what is the policy the funds are intended to enable?
    In approximately one decade as military and intelligence 
space imaging requirements changed, the commercial remote 
sensing satellite industry decreased from three companies to 
one. The remaining company continues to operate due to its 
continuing NGA contract. After years of exchanging funds, 
contracts, products, and services, there is not a sustained 
long-term U.S. commercial satellite space-based industry. A 
single entity exists because of military funding, not because 
of an independent market.
    The NGA has announced a new commercial strategy that plans 
to use emerging technologies. Therefore, the question going 
forward is, will the previous cycle be repeated but with newer 
technologies? That is, an infusion of military funds into a few 
companies whose overwhelming focus must be to meet mission 
needs, followed by industry reorganization catalyzed by change 
in requirements, followed by a winnowing of companies that will 
be likely rendered technologically less relevant in the face of 
the next new technology.
    Going forward, it ought to be clear whether Congressional 
intention is to facilitate a true commercial information 
industry with a vibrant market or a dedicated capability 
dependent on military funds. The possibility of repeating the 
cycle requires consideration of two concepts: first, what 
constitutes commercial, and second, what should be done by the 
public sector and what should be done by the private sector. 
And I refer you to my written testimony for a full discussion.
    The second point is the global commercial remote sensing 
legal landscape. U.S. remote sensing law is the apparent 
standard for remote sensing law around the world. Changes in 
U.S. law will be closely observed by other remote sensing 
nations. It should be expected that in some cases changes made 
in U.S. law will be adopted by other nations. In addition to 
the U.S., there are currently 22 nations that have remote 
sensing laws and policies. The proliferation of remote sensing 
legislation was in response to the commercialization of high-
resolution data.
    Some laws are more restrictive than U.S. law. In Canada, 
government satellites require licenses. That would be analogous 
to NASA or the Defense Department having to get a license for 
their satellites. In Germany, a satellite operator can be 
subject to criminal sanctions if it finds out that data 
distributed got in the hands of entitles that were adverse to 
Germany's national interests. The U.S. only has civil 
sanctions.
    Third, two important policies. The first one is the non-
discriminatory access policy created by the United States and 
adopted twice by this Congress. The second time it was adopted 
by this Congress, the committee said, ``The Committee refrained 
from making any changes in the policy. Specifically the 
Committee is reluctant to take any action which might revive 
the debate in the United Nations about the legitimacy of remote 
sensing without prior consent. It is in the U.S. national 
interest to ensure that the non-discriminatory access policy is 
continued.''
    Another important policy is the National Satellite Land 
Remote Sensing Data Archive. The scientific value of data grows 
over time, and in the era of big data, it now also grows in 
economic value over time. It is crucial to both public and 
private interests that the United States has data archiving 
policies in place for the very long term.
    And the fourth and final point I will address is the 
onerous licensing process that currently exits. Current 
regulations embody a worldview that reflect the closing days of 
the Cold War more than the globalization era technology 
development. This is most clear in the method of dispute 
resolution in an interagency disagreement. The Secretary of 
Commerce is required to personally consult with the Secretaries 
of State or Defense, and this function ``shall not be delegated 
below the acting Secretary.'' This dispute resolution structure 
gives substance to an often-voiced criticism of the licensing 
process, namely that the government is overly protective of 
remote sensing capabilities and technologies. The regulations 
were promulgated in 2000 and revised in 2006. The interagency 
process was not revised. It may not be necessary to change the 
Land Remote Sensing Policy Act. However, after a full 16 years, 
revisiting the interagency process is appropriate. Among the 
potential changes that ought to be considered are mechanisms to 
determine if and when an individual agency policy is bringing 
more influence to bear than a national policy; the failure to 
reach a decision is based on disparity of political power more 
than anything else; and the establishment of an authoritative 
dispute resolution mechanism that can be accessed below the 
Cabinet level.
    I thank the Committee for giving me this opportunity and 
thank you for your work in developing the law of space.
    [The prepared statement of Ms. Gabrynowicz follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
   
    
    Chairman Babin. Thank you, Ms. Gabrynowicz. I'd like to 
thank the witnesses for their testimony, and the Chair now 
recognizes himself for five minutes.
    Mr. O'Connell, in the 1990s, a number of U.S. companies 
sought to sell synthetic aperture radar images. Prohibition and 
dysfunction in the Executive Branch licensed the termination 
processes, pushed these companies overseas. Today, a number of 
U.S. companies are developing new and innovative space-based 
remote sensing systems such as space-to-space remote sensing.
    Are we in a similar situation that we were in in the 1990s 
with the possibility that American innovation and investment 
will go overseas to foreign competitors because of these 
regulatory challenges?
    Mr. O'Connell. Thank you, Mr. Chairman, for the question. 
Absolutely we're in that same position, and as a side comment, 
I'd make this comment as well. When we look at the 20-year 
modern history of commercial remote sensing, it's highly 
illustrative in both a good and a bad way for other areas of 
space commercialization: space debris, asteroid mining, others. 
And so we should learn our lessons from this particular area. 
But we're absolutely in that same case again. And we used to 
talk about this mostly in theoretical terms. Could companies go 
overseas? The reality is that the globalization of this 
technology and the information that's coming from it now 
creates incentives for other countries to offer deals, 
opportunities, for people to move overseas.
    And so I would greatly worry about that. I do see that NOAA 
has recently licensed a commercial radar capability, which is a 
bright note. But the commercial radar capability issue is a 
history to avoid.
    Chairman Babin. Yes. Thank you very much. Ms. Quaid, I 
don't think anyone would disagree that protecting U.S. national 
security interests is paramount. However, from a policy 
perspective, it seems that there's a question of what these 
interests should be, particularly in light of increasing 
international competition and wide availability of commercial 
remote sensing and geospatial data.
    Current policy places the obligation to mitigate national 
security risks on licensees, not necessarily on the government. 
As a result, foreign commercial operators are catching up with, 
and in some cases, passing the United States. It doesn't make 
sense to have policies that hold American innovation back and 
yet assists foreign competitors.
    Isn't it better to stay in the lead and dictate terms from 
a position of strength? And how should we as a Nation be 
evolving our understanding of national security interests 
within this domain to ensure that America remains the leader?
    Ms. Weslander Quaid. Thank you for the question, and I 
wholeheartedly agree with the statements that you made. I 
absolutely think, as I highlighted in my testimony, that taking 
the shackles off commercial industry, allowing them to 
innovate, allowing them to do their best is absolutely what we 
must do because we want to maintain a leadership position. If 
we continue to handicap them, we will lose our industrial base, 
which is a national security concern.
    Furthermore, if we have the U.S. in the lead, those are 
friendly parties. And should we need to, in a crisis, there are 
ways to do regulation, such as delay of release of information 
or, just like we do with overseas military sales, restricting 
who we could sell to. So those are things that we can enact, as 
needed, if there is a crisis without overly burdening the 
commercial industry.
    Chairman Babin. Absolutely. Thank you very much. And Mr. 
O'Connell, in your testimony you identified that there's a need 
to reform the law, regulations, and processes governing 
commercial remote sensing. What are the policy outcomes reform 
should achieve? And what, if any, specific recommendations do 
you have to effectuate such outcomes?
    Mr. O'Connell. Thank you, Mr. Chairman. I think ironically 
that the intent of the current policy, as has been mentioned at 
the table already this afternoon is exactly right. It's to 
advance American foreign policy, national security interests. I 
would argue, in addition, scientific interests through the 
creation of a robust commercial remote sensing industry. And so 
that's the broad dimension. Not much has to change there, quite 
frankly, in terms of intent.
    What does that allow us to do? It allows us to make 
investments on the government side of scarce budgetary dollars 
and stretching the limits of science, safety, and security on 
the one hand while taking advantage of a whole new area of a 
commercial market in remote sensing and the knowledge that it 
creates.
    You know, in the industry there's been sort of a question 
over the years, what's the killer application in commercial 
remote sensing? And maybe for now we just have to be 
comfortable with the idea that the killer application is a much 
more detailed understanding of lots of different developments 
that are on our planet.
    And so in addition to that, the knowledge base, the 
encouragement of young children and others to get involved, be 
excited by this whole set of issues that's coming forward, I 
think that's a starting point of some of the outcomes that we 
should achieve.
    To your former question about the national security 
interests, I'd just add one other thing. We do recognize there 
are consequences to our national security from a robust 
commercial imagery market. We have to deliberately understand 
those and take an objective view of how to deal with them.
    Ms. Weslander Quaid. Mr. Chairman, if I could add to that?
    Chairman Babin. Sure. Go ahead.
    Ms. Weslander Quaid. That is to say that having a robust 
commercial marketplace provides resiliency for our national 
security architecture.
    Chairman Babin. Well said. Thank you, Ms. Quaid. Thank you, 
Mr. O'Connell. Now I'll recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses. It feels like we're having this same discussion in 
the commercial space flight arena as well, sort of how to 
balance government and regulation and government participation 
with the interests of facilitating a robust industry. And that 
is true here. It does occur to me, of course, that the 1992 Act 
that established the licensing framework for commercial remote 
sensing was enacted before the evolution of the commercial 
remote sensing industry. And while the industry has grown over 
time as has been noted by Mrs. Gabrynowicz, that it's still 
pretty heavily dependent on government contracts and grants and 
resources. So it is not truly a commercial sector as yet. Over 
the last few years a number of entrants and advances in the 
capabilities and operations has also been quite dramatic.
    And so I'm trying to understand, and I heard some of this 
in Mr. Dodge's testimony, whether the proposal is that there 
needs to be a foundational statute that has to change or 
whether it's the implementation of the current law and 
regulations that need to be updated. And I wonder, if starting 
with Mrs. Gabrynowicz, if we could begin with you?
    Ms. Gabrynowicz. Thank you. There's no doubt that the 
interagency process needs a lot of work. There's no doubt. And 
that can be done through the MOU of 2000 which is appended to 
the regulations in the CFR, the Code of Federal Regulations. I 
would be very careful about wholesale changing the '92 statute 
because there are a lot of things in there that, in addition to 
commercial remote sensing, that might come in play under a 
political process. For example, there is a National Archive 
which is something we absolutely need, and that could be put 
back on the table. There is the balance between the public 
sector and the private sector regarding Landsat that has a 
tortured 25-year history being pulled back and forth between 
the public and the private sector.
    So I think there's no doubt that the licensing has to 
change, that there has to be mechanisms put in place. But that 
can all be done through revising and renegotiating the MOU of 
2000 without necessarily touching the statute.
    Ms. Edwards. And you could also then touch all the 
underlying regulations as well?
    Ms. Gabrynowicz. Yes, absolutely, because it's part of the 
CFR. I mean, if you go to the statute first, you'll have to 
figure out what's going to go into that, and then you're back 
to square one with the regulations, whereas I agree with Mr. 
Dodge's statement about a surgical approach, and the surgery 
starts with the 2000 MOU.
    Ms. Edwards. And so Mr. Dodge, could you comment on the 
areas where we could have changes to regulation or maybe there 
need to be amendments to the '92 Act? But could you elaborate 
on your testimony?
    Mr. Dodge. Whether a number of areas that could use some 
change, but I guess off the top of my head one of the areas 
could be the fact that there's a 120-day period of time for the 
interagency process for reviewing whether or not there can be 
approval of a license. That is a long time. And for a business, 
for example, that can be onerous to their needs and interests.
    So you could make a, as I said earlier, a surgical 
modification to modify that, for example, going down from 120 
days to maybe 90 days or 60 days or whatever would be 
sufficient to both serve the needs of the industry whilst 
maintaining the interests of the government and those sorts of 
data.
    Ms. Edwards. Thank you. Mr. O'Connell, I wonder if you 
could tell me, I mean there has been reference to the 120-day 
period. How much of that is impacted by the relatively static 
budget that the regulators face in terms of them being able to 
move forward the process?
    Mr. O'Connell. Thank you, Congresswoman. I think it's very 
much affected by that as well as the extensive set of 
stakeholders in the U.S. Government that have equities in 
remote sensing. And so you see I think NOAA sometimes struggles 
with shepherding all of those entities and their viewpoints as 
we think about the licensing piece.
    I think one of the things that troubles me is that there 
are--I'll say it this way: there are too many people who can 
say no and too many people who can stop the clock without 
direct accountability in the regulatory process. And as has 
already been mentioned, sometimes those 120-day delays are 
really onerous on businesses that are trying to get off the 
ground.
    And so how do you make sure that there's a transparent 
process? And again, there are way too many examples of 
companies saying that on day 119, they've gone through a 
faithful discussion with NOAA about what they intend to put in 
the license. The clock runs on the day 119. They get a letter 
that says, oops. We're not ready to do this yet. We've got to 
think about it a little bit more. And beyond that, there is 
opacity in the process. And lots of people, like I said, can 
stop the clock, and lots of people can say no in the process.
    Ms. Edwards. Thank you.
    Mr. O'Connell. So I think that's partly a resource issue as 
you've suggested. But there also needs to be more transparency 
in the whole process.
    Ms. Edwards. And thank you. Mr. Chairman, can we let Ms. 
Gabrynowicz finish her comment?
    Chairman Babin. Yes.
    Ms. Edwards. Thank you.
    Ms. Gabrynowicz. Thank you, and the only other thing I 
wanted to state is that the clock can be stopped at the level 
of the cabinet and special assistants to the President. When 
you're up in that stratosphere, there's no control anymore by 
the rank and file and the licensees. To have to reach Cabinet 
level where the clock can be stopped for reasons you won't know 
is a serious problem.
    Chairman Babin. Thank you. I now recognize the gentleman 
from Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. My question is 
directed first at Mr. O'Connell, and so if you'd give your 
response? And then following that, Ms. Quaid, if you would add 
your insight. And then should any of the other three panelists 
wish to add their insights thereafter, please feel free to do 
so.
    National security is a major application for remote sensing 
capabilities. It constitutes an important market for the 
industry. At the same time, national security concerns may 
constrain the commercial market through means such as licensing 
requirements that limit image resolution.
    Considering the international development of increasingly 
advanced remote sensing capabilities, how effective are current 
United States requirements such as resolution limits, shutter 
control, and export control regimes at addressing national 
security concerns? And if we fail to achieve meaningful reform, 
how will United States national security interests be impacted? 
Mr. O'Connell?
    Mr. O'Connell. Thank you, Congressman, for the question. On 
the one hand, we have a national policy that says we're going 
to lead in the international world, not follow, not harmonize, 
et cetera. And I'd like to make that point first. National 
security is enhanced by us taking maximum advantage of these 
capabilities consistent with what we're doing on the government 
side.
    And so some of the mechanisms that you've referred to, we 
really have to be proactive in thinking about innovation that 
comes from them for the government's purposes in addition to 
what may go on in the commercial market.
    And so we have to be sensitive to the national security 
implications of allowing things at say better spatial 
resolution, some of the other things that you're talking about.
    It's a complex regulatory landscape, and some alignment has 
to be done to look across those to see what the effect is on 
the actual industry and its effect on national security in 
accordance with that.
    Mr. Brooks. Ms. Quaid?
    Ms. Weslander Quaid. I think the resolution limits--the 
example we have with SAR where we had a license granted, and 
they were not allowed to sell better than five meter, which is 
not very useful--and we had another license granted where they 
were not allowed to sell better than three meter, which is also 
not very useful and viable in a commercial marketplace.
    And so we are looking at a reality where the U.S. is not a 
leader in synthetic aperture radar right now as a result of 
that.
    And then if we look at something like shutter control, if 
you step back, and a lot of times the people writing the policy 
don't realize the practical implications of this, but saying 
I'm going to black out certain regions of the globe and having 
to implement that on the commercial side can be extremely 
burdensome and complex and very costly, versus saying, as I 
suggested before, where they might say a delay in release of 
imagery or you know, sells not to certain areas. But we must 
recognize there are other vendors that are not U.S. that may 
sell that data to someone that we don't want to have that data. 
So I think there are definitely better ways to provide this. 
Have a collaborative nature to say, let industry lead. Let them 
innovate. That is in our national security interest. Those 
assets provide resiliency. And then we have a cooperative 
partnership with them in the national security community. And 
when the need arises, we can invoke something that will help 
protect national security interests.
    And, for those of us with intelligence backgrounds, there 
are always ways to potentially spend money and ask them to task 
someplace else on that pass so they are not looking at the area 
that you are concerned with, so there are ways to get around 
this. Thank you.
    Mr. Brooks. Thank you, Ms. Quaid. Does anyone else wish to 
add any insight?
    Mr. O'Connell. Could I have one follow-up, please?
    Mr. Brooks. Yes, Mr. O'Connell.
    Mr. O'Connell. There's an important 20-year history to 
recognize here on issues related to shutter control and 
national security and it's that there has never been an example 
where government and industry have not cooperated, especially 
when the government is clear in both space and time on its 
concerns about national security, okay? So that's a very 
positive history that we need to leverage going forward as we 
think about this.
    Ms. Weslander Quaid. And if I can add, we're all American 
citizens, whether industry or government, and we all care very 
deeply about the national security. So I agree with what Kevin 
said. Absolutely there's been cooperation when we needed it for 
the country.
    Mr. Brooks. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Babin. I now recognize the gentleman from 
Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thank you all for being 
here. Mr. O'Connell, you wrote, ``We need to update our 
thinking about how to protect U.S. troops, facilities, and 
operations in this increasingly transparent world, not fixated 
on information control as a source of security.'' Ms. Weslander 
Quaid, you said again and again, because expanding the sensing 
capabilities gives us the resiliency, makes us more secure.
    How much pushback do you get from the Department of Defense 
and from flag officers on this perspective? It seems to me 
easier to be in the industry that is growing and doing so well 
to argue this than perhaps it is from someone who has the 
responsibility to protect troops and protect the Nation.
    Ms. Weslander Quaid. Thank you for the question. In my time 
down range with those combatant commanders in Iraq and 
Afghanistan, the need to share was paramount. And you had them 
taking essentially their authorities and saying we may be 
violating policy, but we'll ask forgiveness later because lives 
are on the line. And I think that's important, that we have 
data from assets that is freely sharable that can be provided 
in the context where we're going to, you know, go after a 
terrorist and they're doing an operation at night. And that 
intel picture is great in the intel cell, but then they can't 
take it with them when they're going on the mission. And often 
the resiliency that we talk about with commercial assets, maybe 
the intel asset has not been over most recently but a 
commercial asset has been. And that is the timely intelligence 
they need as they're doing their mission planning.
    So that's what I've seen. When lives are on the line, they 
will take it from any source. And the most important thing is 
that they can share that and they can share it with the 
commonwealth, the coalition, and the coalition of the day.
    Mr. Beyer. But in listening for the last hour it seems to 
me the great conflict here, the source of all this burdensome 
regulation, the need for new philosophy, is the conflict on 
national security. So isn't it possible also to have the 
national security leaders sitting at the same table to argue 
this? Would they be willing to do that? Or are they going to 
resist this?
    Ms. Weslander Quaid. There are those of us on ACCRES for 
example who have held TS/SCI clearances--for me for my entire 
career, and we would welcome that discussion to understand 
specific national security concerns that cause them to raise 
the national security flag. In my experience, I don't know what 
they could be.
    Mr. Beyer. Okay, because that does seem to be the 
existential crises here driving all this.
    Mr. Pomfret, you lead the Center for Spatial Law and 
Policy. You know, our Chairman, Mr. Smith, at the beginning 
talked about, quote, the outdated and improper federal 
regulations and policy and that we need a different regulatory 
philosophy. There's been lots and lots of general comment about 
how outdated the process is. How do we go about fixing this? 
What process do we create to get something that is actually 
forward-looking, 21st century?
    Mr. Pomfret. I think the first step is to recognize, one, 
that the remote sensing industry is a global one and some of 
the national security threats that people were concerned about 
back in 1992 and in 2000 and in 2004 from U.S. commercial 
systems are now not the U.S. commercial systems. There are a 
number of other actors that have sensors that are collecting 
this information, not just from satellites. So any balancing--I 
talk about the inherence of balancing between the perceived 
risks and the benefits. Any balancing needs to take that into 
effect.
    I also think that we need to start thinking about--and 
you'll know in my comments I talked a lot about geo-information 
and not about just remote sensing because I think we tend to 
have on blinders and to think about regulating a certain 
sector, whether it be the commercial remote sensing sector or 
whether it be drones or whether it be issues associated with 
mobile devices and to start thinking about it more broadly in 
terms of all this information that's being collected and how 
it's going to be used because that's what the consumers care 
about. And that's what industry cares about. And even if we 
talked about here before about doing sort of just a surgical 
change to a particular law or regulation to me is a short-term 
fix and doesn't address the long-term implications of where 
this technology is going in what, if you want to have a 
location-enabled society, what that's going to look like and 
where the commercial remote sensing industry fits into that.
    Mr. Beyer. Okay. Thank you. Mr. O'Connell, is NOAA's 
enforcement requirement on visiting all ground stations 
reasonable? Is this a place to start?
    Mr. O'Connell. This is certainly one place to start, 
Congressman. And this is a topic that we did take up in the 
committee probably about a year ago. It is an old-fashioned way 
of doing it. The need to visit every single ground station, I 
would argue perhaps the technical limits, that we're living in 
a world where I might be able to control a satellite with an 
iPad or some sort of a mobile device. And so it's probably 
impractical, certainly within the resources that NOAA has to 
visit every single ground station at least once a year. And 
that's certainly one place.
    On the committee in public session we recommended a number 
of things for NOAA to consider in that regard. One of them was 
for example deputizing another federal official overseas. Give 
them a checklist, ask them to go out and do the inspection 
themselves, someone closer to where the ground station would 
be, and that was not agreed to, as best as I understand.
    Mr. Beyer. All right. Thank you. Mr. Chair, I yield back.
    Chairman Babin. Thank you. I now recognize the gentleman 
from Oklahoma, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman. Thank you all for 
being here and testifying today. I wanted to ask you, Mr. 
O'Connell. Earlier you said current regulations don't address 
capabilities outside the electro-optical spectrum. Is that 
correct?
    Mr. O'Connell. That's correct.
    Mr. Bridenstine. And I think just a few minutes ago you 
said that there was recently a license given for radar, space-
based radar?
    Mr. O'Connell. That's correct.
    Mr. Bridenstine. So how do you reconcile those two?
    Mr. O'Connell. Well, I think there was a large discussion 
that went on, a large and lengthy discussion, about applying 
what they could out of the regulations and nonetheless going 
ahead and issuing the license.
    Mr. Bridenstine. So they are regulating and they are 
licensing. Do they have statutory authority to do that? Is that 
something we should give?
    Mr. O'Connell. I think you should take a look at it.
    Mr. Bridenstine. Okay. That's important. When you think 
about transparency, we've heard from a lot of folks, I've 
heard, our office has heard from a lot of folks that at the end 
of the day, they don't get a yes or a no but they don't get a 
why, either.
    Mr. O'Connell. Right.
    Mr. Bridenstine. And sometimes they get a no but they don't 
get a why. If you have a company that's cleared, do we have an 
obligation or should we have an obligation to make sure they 
understand why? Because ultimately we have an interest in 
making sure this industry is successful so that we want them to 
go and get more capital investments. We want them to build more 
satellites. We want them to get more geospatial intelligence 
resources for us. But then we're not giving them an explanation 
of why they're not getting a license which prohibits them from 
doing all those great things we need them to do.
    Mr. O'Connell. Congressman, that's a great question, and it 
calls for a better conversation between the government on its 
precise national security concerns and the industry. There's 
clearances involved. There's all the other artifacts associated 
with doing that. We have to have a better way to convey those 
national security concerns clearly and crisply to companies 
that are in the market.
    One of my best examples of this is when I hear government 
colleagues say, gee, do the business models close on these 
companies? You know, are these companies going to be 
profitable? It is proper for anyone in the government that 
expects to spend money with a commercial enterprise to have 
some sense of that. But as you might imagine, government 
officials are uniquely not positioned to make that kind of 
evaluation. One of the things that I've been pursuing is some 
surrogate that could come from an organization closer to the 
business model world--space insurance, space finance--just as 
examples that we thought about. But you're absolutely on the 
right track which is we need a much better conversation, a 
clearer conversation.
    Mr. Bridenstine. Can you do space insurance for a risk that 
nobody can possibly measure? We're talking about political risk 
I guess in this case?
    Mr. O'Connell. Or business model risk.
    Mr. Bridenstine. Okay. Sure. I had another thought that I 
read recently which is that the law requires that the Secretary 
of Commerce consult with, but not concur with, necessarily the 
Department of Defense or the Department of State. Is that 
correct?
    Mr. O'Connell. Correct.
    Mr. Bridenstine. So ultimately, the Secretary of Commerce, 
unless told a very explicit reason why not to do it, could just 
say let's go forward with this, according to the law?
    Mr. O'Connell. That's correct.
    Mr. Bridenstine. Anybody here disagree with that? So if we 
had maybe an aggressive Secretary of Commerce that was willing 
to push on that, could we get better results for the 
intelligence community and for the industry in general?
    Mr. O'Connell. I think that conversation would be improved, 
Congressman.
    Mr. Bridenstine. I'm not saying we need a new Secretary of 
Commerce.
    Mr. O'Connell. No, no.
    Mr. Bridenstine. I'm just saying that maybe that's one area 
that the Secretary of Commerce could look at. The one area, 
another area, that I've heard and I have concerns on is this 
retroactive changing of licenses where people, you know, get 
their license maybe not revoked but changed in a way that is 
not as beneficial to them in the future and they can't sell 
their products as much. What do we do to compensate them as a 
government? If they make investments based on a contract with 
the U.S. Government, and that contract might be just a 
regulatory deal, maybe not a monetary deal but a regulatory 
arrangement, and they go out and they start selling products 
and then they have their license maybe altered and they can't 
close that business model as you suggested earlier, what do we 
do to compensate when government makes that decision? And are 
we at risk of putting people out of business or maybe not 
quantifiable but are we at risk of having people not enter a 
business that they otherwise would have entered?
    Mr. O'Connell. Absolutely, Congressman. I can't comment on 
what we would pay them and how we'd make that calculation. And 
to my knowledge--
    Mr. Bridenstine. Do we? Does that ever happen? Anyone? It 
does happen?
    Ms. Gabrynowicz. A license can be an asset, and if it gets 
modified or changed, its economic value changes. And there are 
other contract regulations. You need to talk to a good contract 
officer here----
    Mr. Bridenstine. Okay.
    Ms. Gabrynowicz. --about for the needs of the government, 
when something needs to be modified or ended that wasn't 
planned, how that's paid for.
    Mr. Bridenstine. Okay. Last question, Mr. Chairman, if 
you'll give me just a few more seconds here.
    Chairman Babin. Certainly.
    Mr. Bridenstine. When you think about hyperspectral and 
synthetic aperture radar, we're always talking about space-
based, look-down capabilities. What about space-based look-up 
capabilities, maybe for better space-based, space-situation 
awareness? Do we regulate that at all? Is there anybody trying 
to get a commercial license to do that kind of activity? And 
maybe anybody that you guys either represent or have 
represented that is involved in that activity? And would NOAA 
or the Department of Commerce be involved in issuing such a 
license?
    Mr. O'Connell. I've talked to a couple of people who say 
they're going to start companies in that arena. I do not 
believe that the regulatory process, or at least a reasonable 
one, exists to license that kind of capability.
    That's the point I was making before. I think we ought to 
look at this 20-year history as something to consider when we 
think about other areas of space commerce that people, that 
companies, are starting to enter: space weather, SSA (space 
situational awareness), space debris, other things like that.
    Mr. Bridenstine. Okay. Mrs. Gabrynowicz, I would like to 
thank you for your testimony explicitly because it said--you 
were talking in there about the Secretary of Commerce and the 
Secretary of State and the Secretary of Defense, and that if 
they don't agree--remember, this is after it's gotten through 
the staffers, it goes to them. If they don't agree, then it 
goes to the President.
    Ms. Gabrynowicz. Well, the assistants to the President and 
then the President.
    Mr. Bridenstine. And then the President.
    Ms. Gabrynowicz. Um-hum.
    Mr. Bridenstine. Do we know that that's ever happened?
    Ms. Gabrynowicz. I personally have no knowledge, yeah.
    Mr. Bridenstine. That seems like a bit much. I think the 
President has other things to do. If that's the process and if 
that's the process that's written down, there's no wonder it 
takes such a long time.
    So I thank you. And Mr. Chairman, I yield back what time I 
don't have anymore.
    Chairman Babin. Yeah, I gave you an inch. You took a mile 
there, Mr. Bridenstine. No problem. I now recognize the 
gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair. I'll start with where 
Mr. Bridenstine just left off. I mean, two words, obviously 
jump front and center: transparency and opacity. And the other 
two words that come to mind are pecking order because everybody 
at the table, all you panelists, probably have much higher 
clearances than anybody up here. And obviously, I've run into 
this. I've actually had a conversation with the Secretary of 
Commerce about a particular issue dealing with Digital Globe 
and something that's been hanging out there for two or three 
years now. And my sense is that whether there is some 
specificity in the law or not, there is a real or perceived 
pecking order in how decisions involving something that might 
be used by the intelligence community or might be used by the 
military or might be moved over to the civil side, how that all 
is developed.
    And so I want to start with you, Ms. Quaid, and then go to 
you, Ms. Gabrynowicz, just to talk about reality here. Theory 
is great. I'm a lawyer, okay? That's what I do. I try to deal 
with the law. But in these kinds of things--and Ms. Quaid you 
talked about when life is on the line, when somebody's life is 
on the line, whatever these rules may be seem to go out of the 
window. If somebody at a Cabinet level or some lower level or 
the Special Assistant to the President says, wait a second, 
this could get a bunch of our soldiers hurt, you don't think 
that's going to stop NOAA from issuing a license? I mean, 
that's what I'm sensing here.
    So talk to us about reality. You had a chance to be on the 
geospatial, you were with that department, so how does it work? 
How does it really work?
    Ms. Weslander Quaid. Well, I'll tell you, the biggest 
question--and it goes to this Congressman's question as well as 
when they got a no or they got the license revoked, were they 
given a why? And we have heard time and time again, especially 
in ACCRES about the national security concern. And as I 
mentioned before to say let's have the meeting, let's have the 
discussion, because we have to advise the Secretary of 
Commerce. And frankly, in the discussion we finally had, which 
I think was a whopping 30 minutes, none of us who were in that 
session could agree that there was really a valid reason to say 
there's a national security concern and further thwart the 
requests that were coming forward.
    Mr. Perlmutter. Were you dealing with one of the 
intelligence agencies or was this with NOAA?
    Ms. Weslander Quaid. No, it was with quite a few of the 
intelligence agencies in the room in a skiff, as we'd say, 
where they have----
    Mr. Perlmutter. Okay.
    Ms. Weslander Quaid. --secure discussions. And so what I 
think as I mentioned in my testimony, the burden of proof being 
on the government to say why not and articulate that. And where 
there's those of us in the advisory roles who are kind of 
mediating between those in the national security community, 
because we have the clearances, and with the Secretary of 
Commerce that we can be informed, and therefore we all want the 
best interests of America here. But when there is--we're 
fighting ghosts, it's hard. You know, give me some tangible 
reason and then I can go explain to the Secretary of Commerce 
why she shouldn't do this.
    Mr. Perlmutter. Okay.
    Ms. Weslander Quaid. And so without that data, you know, 
it's hard to justify why we would say no.
    Mr. Perlmutter. Okay. Let me go to Ms. Gabrynowicz and then 
to you, Mr. Pomfret. Okay.
    Ms. Gabrynowicz. I have not had the kind of in-the-trenches 
experience that Ms. Quaid has had. But my observation has been 
that sometimes what happens is there's an agency policy that 
participants hang onto and promote which may be different than 
a national policy. And it will stop there.
    Mr. Perlmutter. Okay. Mr. Pomfret?
    Mr. Pomfret. Thank you. I guess the perspective that I want 
to bring is that this isn't just unique to the United States 
and it's not just unique to remote sensing satellites. Most 
geospatial technology has come out of the defense and 
intelligence communities over the years. And in many countries 
around the world they have the first or last say, if you will, 
as to whether something can and can't be used for a commercial 
or civilian use. And they will play the national security card 
quite a bit. And I think it's natural given where they're 
sitting and their perspective and their background. So I don't 
necessarily fault them. But in countries around the world, in 
India they're trying to deal with mapping legislation that 
would make it illegal for people who weren't government 
authorities to create maps. And there are similar situations in 
a lot of different countries around the world, evolving 
geospatial technology and geospatial information.
    And so when we have this discussion, I think part of it is 
to recognize that yes, the technology started in these 
communities but the environment has changed. And maybe some of 
the deference that was paid before isn't necessarily as 
critical as it was. I'm not saying that, no, that they 
shouldn't have any say but the balancing has changed.
    Mr. Perlmutter. All right. Last question if I could, Mr. 
Chairman. The last question would be so to go back to placing 
the burden on the government or the intelligence community or 
the military to say, okay, in a SCIF or in a secured 
environment, say here's why we don't want this to be available 
to the public. Is it going to be written down and then 
published? Is it just available in a confidential way? I mean, 
what are you thinking about here? Because there may be a middle 
ground for us so that the Secretary of NOAA actually can say, 
you know, this is why I'm not issuing this license. But right 
now, she can't. Do you see what I'm saying?
    Ms. Weslander Quaid. And some of the discussion can be can 
we go ahead and let them build it and launch it and operate it? 
And then when there is truly a national security concern, say a 
high res collection over a certain area, that's when we say you 
can't disseminate it--24 hours, 48 hours, ever--or you can't 
give it to these parties. And so we're not tying the hands of 
American innovation. What I worry about is going back to that 
SAR example where they said, no, you can't sell the one meter, 
and then--boom-- two international competitors pop up while 
we've held them back. We could have been the leader there. And 
we don't want to repeat that.
    Mr. Perlmutter. Okay. Thanks, Mr. Chair.
    Chairman Babin. You bet. Thank you. They've called votes, 
so we're going to get our last question in here. And Mr. 
Davidson, I'll give you five minutes.
    Mr. Davidson. Thank you, Mr. Chairman. And I'll keep it 
brief so I know we all have places we have to get to. So I'll 
just ask one general question that may take a little bit for 
you all to answer. What areas are we behind? And if I just 
think about this from the perspective of an entrepreneur, I get 
this great idea, want to launch it. How do I know that, well, 
you can't sell that? How do I then, if I'm sitting behind the 
desk at Wright-Patterson Air Force Base looking for the 
greatest geospatial resources, how do I know that it even 
exists? You know, it's not like all this stuff is going to wind 
up on eBay. So how does our Intelligence Committee know that 
there's an entrepreneur working in a garage to come up with 
this radar? How does the guy that's working on this, you know, 
latest/greatest, you know, geo thing, whatever the void in 
technology is, how do these people come to be aware that 
they're working on something that could be helpful to one 
another?
    Mr. O'Connell. Thank you, Congressman. I guess that's the 
place that the licensing process should be the enabler, not the 
blocking mechanism. In essence, that's the basis for someone to 
understand in the government that a new kind of capability is 
being considered under commercial considerations. So that's the 
entry point where we know what people are thinking about, and 
at least in my time looking at this, there've been a lot of 
people coming for with interesting capabilities. Not all of 
them will necessarily succeed for lots of different reasons. 
But that licensing process is the starting point at which 
somebody comes and says, ``I'm so serious about this.'' I'm 
going to create a business for it. And that should be the 
basis. That should be the enabler, ultimately, for doing that, 
for creating that capability.
    Mr. Davidson. Okay. So what are some examples where that 
didn't go correctly? So you look at it and say, hey, oops. Now 
this is out there. We really wish that didn't. The downside of 
a total security environment is you don't get all the 
innovation, you know. An upside of it is you don't compromise 
stuff. It preserves the status quo. And since we're in the lead 
on a lot of things, we might like that. It doesn't do good 
things for the market, but I guess that's the thing. How does 
there become this market? Simply licensing, just the fact that 
the people that know this space know, gee, if I know enough to 
create this contraption, I know that I have to license it. How 
do they find that they've committed a violation of the law? 
Surely they wouldn't be prosecuted without an intent.
    Mr. Pomfret. My experience is, and I'm not sure if this 
directly answers your point, but that entrepreneurs, they 
operate very well in a vacuum. And so the uncertainty, because 
of the business, the technology, the legal and regulatory 
uncertainty isn't a problem for them. They will fill that void. 
It gets to be a problem when you have a business that's 
actually up and running and operating, and you have products to 
sell and you hire lawyers. And lawyers look at it and say I 
have no idea what you can and can't do. And so it's easier for 
me to say no and yes. So I think you see--and we've heard that 
there are a number of companies that have applied for licenses 
because they just--their business risk is so great that just 
filling out this regulatory paperwork is not that big of a deal 
for them. But when you do start running a business and you're 
trying to figure out when you can sell to NGA and when you can 
sell to a foreign entity and what you can sell to someone else, 
that's where it gets really complicated. And that's where a lot 
of companies are hitting the wall because they see who their 
customers are or they think they know where they can get 
investments. But the challenge is that the uncertainty is such 
that they don't want to spend the money or they don't want to 
spend the 300 days waiting to get approval.
    Mr. Davidson. Thank you. I yield back my time.
    Chairman Babin. Thank you so much. That was my second 
warning that votes have been called. But I would like to thank 
the witnesses for your valuable testimony and the Members for 
your questions. The record will remain open for two weeks for 
additional comments and written questions from the Members. And 
so this hearing is adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
